CREDIT LINE ACCOUNT AGREEMENT AND DISCLOSURE
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-INLENDING DISCLOSURE STATEMENTS, FIRST TIME USER VISA, LOW RATE VISA, SHARE SECURED VISA,
PLATINUM REWARDS VISA, WSUAA AFFINITY VISA AND WSUAA AFFINITY REWARDS VISA, AGREEMENTS,
AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR FIRST TIME USER VISA, PLATINUM
REWARDS VISA, WSUAA AFFINITY VISA, WSUAA AFFINITY REWARDS VISA, LOW RATE VISA AND SHARE
SECURED VISA, CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO
READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

First Time User VISA:

_________%
17.99

Share Secured VISA:

12.50
_________%

6.25-14.25 %
_________

Low Rate VISA:
Your APR will vary with the market based on the Prime Rate.

_________
9.25-17.25 %

Platinum Rewards VISA:
Your APR will vary with the market based on the Prime Rate.

_________
6.25-14.25 %

WSUAA Affinity VISA:
Your APR will vary with the market based on the Prime Rate.

_________
9.25-17.25 %

WSUAA Affinity Rewards VISA:
Your APR will vary with the market based on the Prime Rate.
Annual Percentage Rate
(APR) For Balance Transfers

17.99
First Time User VISA: _________%

12.50
Share Secured VISA: _________%
6.25-14.25 %
Low Rate VISA: _________
Your APR will vary with the market based on the Prime Rate.
9.25-17.25 %
Platinum Rewards VISA: _________
Your APR will vary with the market based on the Prime Rate.

6.25-14.25 %
WSUAA Affinity VISA: _________
Your APR will vary with the market based on the Prime Rate.

9.25-17.25 %
WSUAA Affinity Rewards VISA: _________
Your APR will vary with the market based on the Prime Rate.
Annual Percentage Rate
(APR) For Cash Advances

17.99
First Time User VISA: _________%

12.50
Share Secured VISA: _________%

6.25-14.25 %
Low Rate VISA: _________
Your APR will vary with the market based on the Prime Rate.
9.25-17.25 %
Platinum Rewards VISA: _________
Your APR will vary with the market based on the Prime Rate.
6.25-14.25 %
WSUAA Affinity VISA: _________
Your APR will vary with the market based on the Prime Rate.
WSUAA Affinity Rewards VISA: 9.25-17.25
_________%
Your APR will vary with the market based on the Prime Rate.
ReadyLine: max
_________%
17.90

25.00
Stretch Pay® Line of Credit: _________%
SEE PAGE 2 for more important information about Your Account
Copyright Oak Tree Business Systems, Inc., 2001-2020. All Rights Reserved.

Page 1 of 5

OTBS 016 WRIT (9/20)

Interest Rate and Interest Charges (continued)
Paying Interest

For VISA We will not charge You interest on purchases if You pay Your entire balance owed
each month within 25 days of Your statement closing date.
For all Feature Categories, We will begin charging interest on cash advances and balance
transfers on the transaction date.

For Credit Card Tips from
the Federal Reserve Board

To learn more about factors to consider when applying for or using a Credit Card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

For StretchPay® Line of Credit, $25.00, $35.00 or $70.00 depending on Your approved
credit limit.

Transaction Fees
 Foreign Transaction

For VISA, 1.00% of each foreign currency transaction in U.S. Dollars.
For VISA, 1.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Returned Payment
 Late Payment

For VISA up to $25.00
For VISA up to $20.00
Except for VISA, 5.00% of the payment due

How We Will Calculate Your Balance: For all Feature Categories (except VISA), We use a method called "daily balance."
For VISA, We use a method called "average daily balance (including new purchases)." See Your Account Agreement
for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
SEE PAGE 1 for more important information about Your Account
Interest Rate and Interest Charges (continued)
In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean WRIGHT-PATT CREDIT UNION, INC. The words "You" and "Your" mean each person
accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any First Time User VISA, Low Rate
VISA, Share Secured VISA, Platinum Rewards VISA, WSUAA Affinity VISA or WSUAA Affinity Rewards VISA, Credit Card issued to You by Us and any duplicates or
renewals. "Convenience Checks" mean the special Account access devices that We may provide for Your use from time to time.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein constitute
Our Agreement with You. Your Account may be accessible through a variety of means which could include advance request forms, vouchers, checks, charge slips, Convenience
Checks, Credit Cards and the like. Regardless of the access means, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to
Your Account, with actual, apparent or implied authority for use of Your Account, including Finance Charges and other fees or charges described herein.
FEATURE CATEGORIES. Your Account has Feature Categories which may include ReadyLine, StretchPay® Line of Credit, First Time User VISA, Low Rate VISA, Share
Secured VISA, Platinum Rewards VISA, WSUAA Affinity VISA and WSUAA Affinity Rewards VISA.
ADVANCES. Whenever You request a transaction, We may require You to prove
Your identity. If You request an advance by telephone, We will deposit the amount
requested in Your share account or Your share draft account and You authorize Us
to do this, or We may draw a draft or check made payable to You and mail it to You.
When the amount advanced appears on a subsequent statement that will be
conclusive evidence of Your telephone request. You understand that whether or not
any specific secured advance request is approved may be determined by how much
equity You have or will have in the shares and/or collateral offered as security.
For advances under Your StretchPay® Line of Credit Feature Category, all
advances must be equal to Your approved Credit Limit.
SECURITY. As permitted by law, to secure all transactions under this Agreement in
either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may enforce
Our right to do so without further notice to You. Additionally, You agree that We may
set-off any mutual indebtedness.
You acknowledge that You own any shares and/or collateral pledged as security
and that there are no other liens against them other than Ours. You agree to perform
all acts which are necessary to make Our security interest in the shares and/or
collateral being pledged enforceable.
Copyright Oak Tree Business Systems, Inc., 2001-2020. All Rights Reserved.

All certificates which are pledged as Collateral must be renewed until Your
outstanding balance is paid in full. Failure to renew any certificates securing any
advance will cause Your entire outstanding Account balance to become
immediately due and payable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given as
security under this Agreement or for any other loan You may have with Us will secure
all amounts You owe Us now and in the future if that status is reflected in the "TruthIn-Lending Disclosure" in any particular Agreement evidencing such debt.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Share Secured
VISA Feature Category, You agree to give Us a specific pledge of shares which will
equal Your Credit Limit. In the event that You default on Your Account, We may
apply these shares toward the repayment of any amount owed on Your Share
Secured VISA Category. You may cancel Your Share Secured VISA Account at any
time by paying any amounts owed on Your Secured VISA Feature Category. To be
certain that Your entire balance and all advances on Your Account are paid, any
shares pledged may not be available to You for 30 days after You have cancelled
and any outstanding balance is paid in full.
In order to receive and maintain a StretchPay® Line of Credit Feature Category, You
agree to give Us a specific pledge of shares at the time of Your initial advance on
Your StretchPay® Line of Credit, which will equal 10.00% of Your Credit Limit. The
funds required for this pledge will be deducted from the amount advanced and
deposited into Your share account. In the event that You default on Your

Page 2 of 5

OTBS 016 WRIT (9/20)

StretchPay® Line of Credit Feature Category, We may apply these shares toward
the repayment of any amount owed on such Feature Category. The shares
originally pledged will be released upon Our termination and closure of such
Feature Category although they may not be available to You for 30 days after any
outstanding balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for each
Feature Category for which You are approved. Unless You are in default, any Credit
Limits established for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand
that any such Account access device(s) will be mailed only to the primary Borrower
at the address that We have on file for You. We may refuse to follow any instructions
which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be
charged periodic Finance Charges to the date You repay Your entire balance.
You may make larger payments without penalty. Any partial payment or
prepayment will not delay Your next scheduled payment. All payments to Us must
be in lawful money of the United States. We may apply each payment to
whichever Feature Category We wish. For all Feature Categories (except VISA),
payments will be applied first to any Late Charges owing, then to the Finance
Charge due, then to the outstanding principal balance. Except as required by law,
the order in which We may apply VISA payments is at Our discretion. Any unpaid
portion of the Finance Charge will be paid by subsequent payments and will not
be added to Your principal balance. You understand that any delay in the
repayment of Your unpaid balance will increase Your periodic Finance Charges
and any acceleration in the repayment of Your unpaid balance will decrease Your
periodic Finance Charges.
ReadyLine Minimum Payments will be an amount equal to 3.00% of Your new
unpaid ReadyLine balance at the end of each billing cycle, subject to the lesser of
$20.00 or Your balance, plus any portion of the Minimum Payments shown on prior
statement(s) which remains unpaid, plus any amount that exceeds Your approved
Credit Limit.
StretchPay® Line of Credit Minimum Payments will be disclosed to You at the time
of each advance on a separate page titled "Credit Line Account Advance Request
and Security Agreement."
VISA Minimum Payments will be an amount equal to 2.00% of Your new unpaid
balance at the end of each billing cycle, subject to the lesser of $20.00 or Your
balance, plus any portion of the Minimum Payments shown on prior statement(s)
which remains unpaid, plus any amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
LATE CHARGE (EXCEPT FOR VISA). If Your payment is 10 or more days late,
You will be charged 5.00% of the payment due.
OTHER FEES AND CHARGES (EXCEPT FOR VISA). For all Feature Categories
(except VISA), You will be charged a $75.00 FINANCE CHARGE each time You
request and We agree to lower the periodic rate and corresponding Annual
Percentage Rate applicable to such Feature Category.
STRETCHPAY® LINE OF CREDIT ANNUAL MEMBERSHIP FEE. StretchPay® Line
of Credit Accountholders with approved Credit Limits of $150.00 will be charged a
$25.00 Annual Membership Fee for continued participation in the StretchPay® Line of
Credit program. StretchPay® Line of Credit Accountholders with approved Credit
Limits of $250.00 will be charged a $35.00 Annual Membership Fee for continued
participation in the StretchPay® Line of Credit program. StretchPay® Line of Credit
Accountholders with approved Credit Limits of $500.00 will be charged a $70.00
Annual Membership Fee for continued participation in the StretchPay® Line of Credit
program. This fee is required each year to continue credit availability whether or not
You use Your Account throughout the year.
FINANCE CHARGES (EXCEPT FOR VISA). A Finance Charge will be assessed
on any unpaid principal balance for each Feature Category of Your Account for
the period such balance is outstanding. Balances change each time advances
are made, payments are made or credits given under any Feature Category. The
Copyright Oak Tree Business Systems, Inc., 2001-2020. All Rights Reserved.

Finance Charge begins to accrue on the date of each advance and there is no
grace period.
HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT FOR VISA). For all
Feature Categories (except for VISA), the Finance Charge is determined by
multiplying Your unpaid balance at the close of each day in the billing cycle being
accounted for by the applicable Daily Periodic Rate. The unpaid balance is the
balance each day after payments, credits, and unpaid Finance Charges to that
balance have been subtracted and any new advances, insurance premiums or other
charges have been added to Your unpaid balance. These daily Finance Charges
are then added together and the sum is the amount of the Finance Charge owed
for the Feature Category being accounted for. The total Finance Charge You owe
on Your Account for each billing cycle is the sum of all the Finance Charges due for
all applicable Feature Categories.
VISA FINANCE CHARGES. In the case of any transactions under Your VISA
Feature Categories, the balances subject to the periodic Finance Charge are
the average daily transactions balances outstanding during the month
(including new transactions).
To get the average daily balance during the first billing cycle, We take the beginning
balance of Your Account each day, add any new purchases, cash advances, debit
adjustments or other charges and subtract any payments, credits and unpaid
Finance Charges. This gives Us the daily balance. Then, We add up all the daily
balances for the billing cycle and divide them by thirty days (regardless of the actual
number of days during the first billing cycle).
To get the average daily balance during the second and subsequent billing cycles,
We take the beginning balance of Your Account each day, add any new purchases,
cash advances, debit adjustments or other charges and subtract any payments,
credits and unpaid Finance Charges. This gives Us the daily balance. Then, We
add up all the daily balances for the billing cycle and divide them by the actual
number of days in the billing cycle.
The Finance Charge for a billing cycle is computed by multiplying the average daily
balance subject to a Finance Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the date
they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from the
date they are posted to Your Account.
VISA VARIABLE RATE. For Low Rate VISA, Platinum Rewards VISA, WSUAA
Affinity VISA and WSUAA Affinity Rewards VISA feature categories, all advances
are subject to a Variable Rate which is based on the highest Prime Rate as
published in the Money Rates section of The Wall Street Journal in effect on the
last day of each calendar quarter of each year ("Index") plus Our Margin. The Index
plus the Margin equals the Interest Rate. Changes in the Index will cause changes
in the Interest Rate on the first day of the billing cycle in the month immediately
following any such change in the index. Increases or decreases in the Interest Rate
will cause like increases or decreases in the Finance Charge and will affect the
number of Your regularly scheduled payments. Other than the maximum and
minimum Interest Rates that can apply at any time, Your Interest Rate will never
increase or decrease by more than 1.00 percentage point on any change date. Your
Interest Rate will never be greater than 25.00%, and will apply to Your remaining
principal balance.
For the applicable Index, Margin, Daily or Monthly Periodic Rates and
corresponding Annual Percentage Rates for all Feature Categories, refer to
the separate page titled Additional Disclosure - Federal Truth In-Lending Act"
and/or "Credit Line Account Advance Request And Security Agreement"
which We have included with and made a part of this Agreement.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will mail You a statement each month in which there
is a debit or credit balance or when a Finance Charge is imposed. We need not
send You a statement if We feel Your Account is uncollectible or if We have started
collection proceedings against You because You defaulted. Each statement is
deemed to be a correct statement of account unless You establish a billing error
pursuant to the Federal Truth-In-Lending Act.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience
Checks have been reported lost or stolen; (3) Your Account has been cancelled or
has expired. If a postdated Convenience Check is paid and, as a result, any other
Convenience Check is returned unpaid, We are not responsible for any resulting
loss or liability.

Page 3 of 5

OTBS 016 WRIT (9/20)

DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to
Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any
of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in
good faith, believe Your ability to repay Your indebtedness hereunder is or soon will
be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of every Feature Category of Your Account immediately
due and payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay all court
costs, private process server fees, investigation fees or other costs incurred in
collection and reasonable attorneys' fees incurred in the course of collecting any
amounts owed under this Agreement or in the recovery of any collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any
other payments, even if they are marked "paid in full" without losing any of Our rights
under this Agreement. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full force
and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect
to do so, You will be given the necessary disclosures and documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," "Additional Disclosure" and/or "Credit
Line Account Advance Request and Security Agreement" which is delivered
together with this Agreement or at a later date becomes an integrated part of this
Agreement and Disclosure.

EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at the telephone number
shown in this Agreement or by writing to Us at the address shown in this Agreement.
In any case, Your liability will not exceed $50.00.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not
liable for the refusal or inability of merchants, financial institutions and others
to accept the Cards or Convenience Checks, or electronic terminals to honor
the Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. Dollars) will be: (a) a rate selected by VISA from the range
of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives; or (b)
the government-mandated rate in effect for the applicable central processing
date. For transactions that are initiated in a foreign currency, You will be charged
1.00% of the final settlement amount. For transactions occurring in foreign
countries and initiated in U.S. Dollars, You will be charged 1.00% of the final
settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.
LATE CHARGE. If Your payment is five or more days late, You will be charged the
lesser of: (a) the amount of the minimum payment due; or (b) $20.00.
OTHER FEES AND CHARGES. You will be charged the lesser of $25.00 for any
check (or other negotiable instrument used for payment) which is returned unpaid,
or the required minimum payment amount for the returned payment.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us at or write to Us at the address
shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your share
account after six months.
Your Billing Rights: Keep this Document for Future Use

CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device; or
by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or other
financial information related to You, at Our request. You also agree that We may,
from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with
applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular Feature
Category of Your Account, at any time, whether or not You are in default. You will, in any
case, remain liable to pay any unpaid balances according to the terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Ohio except to the extent that such laws are inconsistent with controlling
federal law.

What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Wright-Patt Credit
Union, P.O. Box 340134, Beavercreek, OH 45434-0134. In Your letter, give Us the
following information:

.
.
.

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:

.
.

Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay
the amount in question.

SPECIFIC TERMS APPLICABLE TO YOUR
FIRST TIME USER VISA, LOW RATE VISA, SHARE SECURED
VISA, PLATINUM REWARDS VISA, WSUAA AFFINITY VISA AND
WSUAA AFFINITY REWARDS VISA CREDIT CARDS

What Will Happen After We Receive Your Letter

USE OF YOUR CARD. You may use Your Card to buy goods and services in
any place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including,
but not limited to, advances made for the purpose of gambling and/or wagering
where such practices are in violation of applicable state and/or federal law.
Copyright Oak Tree Business Systems, Inc., 2001-2020. All Rights Reserved.

This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

When We receive Your letter, We must do two things:
1) Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

Page 4 of 5

OTBS 016 WRIT (9/20)

While We investigate whether or not there has been an error:





above, You do not have to pay the first $50.00 of the amount You question
even if Your bill is correct.

We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:



If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We
may then report You as delinquent if You do not pay the amount We think
You owe.

If You receive Our explanation but still believe Your bill is wrong, You must
write to Us within 10 days telling Us that You still refuse to pay. If You do so,
We cannot report You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone to whom We
reported You as delinquent, and We must let those organizations know when
the matter has been settled between Us. If We do not follow all of the rules

Copyright Oak Tree Business Systems, Inc., 2001-2020. All Rights Reserved.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1) The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more
than $50.00. (Note: Neither of these are necessary if Your purchase was based
on an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that point, if
We think You owe an amount and You do not pay, We may report You as delinquent.

Page 5 of 5

OTBS 016 WRIT (9/20)

